1

No.
IN THE SUPREME COURT OF THE UNITED STATES
—0O0—

YI TAI SHAO, AKA Linda Shao
Petitioner - Appellant,
vs.
Chief Justice John G. Roberts, Jr., et. al., totally 71 parties (See LIST OF
DEFENDANTS/APPELLEES, INTERPLEADER AND REPRESENTING COUNSEL),
Respondents - Appellees.
U.S. Attorney, Interpleader
Regarding a writ of certiorari to the U.S. Court of Appeal, D.C. Circuit, with case
number of 19-5014 to appeal from Judge Patricia Millet’s Orders of 2/5/2020 denying
rehearing of its order of 11/13/2019 that summarily denied change of venue and sua
sponte confirming Judge Rudolph Contreras’s Order of January 17, 2019 thatsua sponte
dismissed the entire case and prior orders at U.S.D.C., for case number of D18-cv-01233
CERTIFICATE OF WORD COUNT
YI TAI SHAO, ESQ. In pro per
4900 Hopyard Road, Ste. 100
Pleasanton, CA 94588-7101
Telephone: (408) 873-3888; FAX: (408) 418-4070
Email: attornevshao@aol.com
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of Certiorari
submitted contains about 8999words, excluding the parts of the document that areexempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury under the laws of the United States that the foregoing is
true andcorrect to my best knowledge.
Executed on July 2, 2020 in Flayward, California.

1

£

Yi Tai Linda Shao

1

